<html>
<title> - [H.A.S.C. No. 114-103]HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2017 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED FOURTEENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                        [H.A.S.C. No. 114-103]
 
                                 HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2017

                                   AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

         SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES HEARING

                                   ON

                      AIR FORCE PROJECTION FORCES

        AVIATION PROGRAMS AND CAPABILITIES FOR FISCAL YEAR 2017

                               __________

                              HEARING HELD
                             MARCH 1, 2016

                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                               ___________
                               
                               
                     U.S. GOVERNMENT PUBLISHING OFFICE
99-647                       WASHINGTON : 2016                     
         
_______________________________________________________________________________________  
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4720372807243234332f222b376924282a69">[email&#160;protected]</a>  
 

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                  J. RANDY FORBES, Virginia, Chairman

K. MICHAEL CONAWAY, Texas            JOE COURTNEY, Connecticut
BRADLEY BYRNE, Alabama               JAMES R. LANGEVIN, Rhode Island
ROBERT J. WITTMAN, Virginia          RICK LARSEN, Washington
DUNCAN HUNTER, California, Vice      MADELEINE Z. BORDALLO, Guam
    Chair                            HENRY C. ``HANK'' JOHNSON, Jr., 
VICKY HARTZLER, Missouri                 Georgia
PAUL COOK, California                SCOTT H. PETERS, California
JIM BRIDENSTINE, Oklahoma            TULSI GABBARD, Hawaii
JACKIE WALORSKI, Indiana             GWEN GRAHAM, Florida
RYAN K. ZINKE, Montana               SETH MOULTON, Massachusetts
STEPHEN KNIGHT, California
STEVE RUSSELL, Oklahoma
                Bruce Johnson, Professional Staff Member
              Phil MacNaughton, Professional Staff Member
                        Katherine Rember, Clerk
                            
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Courtney, Hon. Joe, a Representative from Connecticut, Ranking 
  Member, Subcommittee on Seapower and Projection Forces.........     3
Forbes, Hon. J. Randy, a Representative from Virginia, Chairman, 
  Subcommittee on Seapower and Projection Forces.................     1

                               WITNESSES

Bunch, Lt Gen Arnold W. Jr., USAF, Military Deputy, Office of the 
  Assistant Secretary of the Air Force for Acquisition...........     4
Holmes, Lt Gen James M. ``Mike,'' USAF, Deputy Chief of Staff for 
  Strategic Plans and Requirements, Headquarters U.S. Air Force..     5

                                APPENDIX

Prepared Statements:

    Courtney, Hon. Joe...........................................    29
    Forbes, Hon. J. Randy........................................    27
    Holmes, Lt Gen James M. ``Mike,'' joint with Lt Gen Arnold W. 
      Bunch, Jr..................................................    31

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Bridenstine..............................................    53
    Mrs. Hartzler................................................    53

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
    
  AIR FORCE PROJECTION FORCES AVIATION PROGRAMS AND CAPABILITIES FOR 
                            FISCAL YEAR 2017

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Subcommittee on Seapower and Projection Forces,
                            Washington, DC, Tuesday, March 1, 2016.
    The subcommittee met, pursuant to call, at 1:03 p.m., in 
room 2212, Rayburn House Office Building, Hon. J. Randy Forbes 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE 
     FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Forbes. Good afternoon. Today, the subcommittee 
convenes to receive testimony on the fiscal year 2017 Air Force 
budget request, regarding bomber, tanker, and airlift 
acquisition programs. The distinguished panel of Air Force 
leaders testifying before us are Lieutenant General Mike 
Holmes, Air Force Deputy Chief of Staff for Strategic Plans and 
Requirements, and Lieutenant General Arnold W. Bunch, Jr., 
United States Air Force Military Deputy, Office of the 
Assistant Secretary of the Air Force for Acquisition.
    Gentlemen, we thank you both for your service to our 
country and for taking the time to be with us today. The fiscal 
year 2017 budget request for Air Force projection forces is a 
good step forward to support our national defense.
    I am pleased to see continued investment in recapitalizing 
the aging bomber and air refueling fleets with the critically 
needed Long Range Strike Bomber [LRS-B], recently designated 
the B-21, and the KC-46A tanker.
    The budget also takes some steps to modernize the legacy C-
130H tactical airlift fleet. That said, I continue to be 
concerned about the ability of our military to properly provide 
for our Nation's defense at the proposed fiscal year 2017 
budget levels.
    As I and many of the members of this subcommittee indicated 
in a letter to the chairman of the Budget Committee, this 
year's budget request reduced investment in critical force 
structure and modernization programs by approximately $18 
billion.
    Specifically, I am concerned about the implications of 
delaying the incremental replacement of the C-130H fleet and 
the proposed reduction of 27 C-130s. The Air Force has 
previously assessed that there is moderate risk with reduced C-
130 force structure, and another reduction further places our 
national security at even greater risk.
    It seems to me that the budget request will result in a 
tactical airlift fleet that is smaller and older, a dangerous 
combination. The Air Force budget rollout indicated ``the Air 
Force is one of the smallest, busiest, and oldest and least 
ready fleets in our history.''
    It is my firm conviction, in light of the higher-end 
threats posed by China, Russia, Iran, and North Korea, that the 
Air Force have the resources it needs to fully support--and if 
possible accelerate--critical recapitalization programs; to 
include purchasing additional aircraft with each dollar saved, 
if the war fighting requirements demand it.
    With regards to bombers, last week the Air Force designated 
the Long Range Strike Bomber as the B-21 bomber. I fully 
support this critical program and am pleased to see that we 
are, once again, moving forward on this new platform, which 
will be needed for projecting power over long distances and 
into denied environments.
    With regard to tankers, I am pleased to see that the KC-46A 
program appears to be on track after overcoming some initial 
setbacks and is continuing to execute a highly compressed test 
and certification schedule that has little room for error. I 
look forward to hearing your thoughts on this program, and 
whether or not the first 18 aircraft will be delivered in time 
to meet the August 2017 contract deadline.
    Lastly, I am concerned that this budget fails to provide 
the resources needed to procure the avionics upgrades needed to 
ensure that the entire fleet of tankers, airlifters, and 
bombers are able to cooperate safely in compliance with the FAA 
[Federal Aviation Administration] mandated next-generation air 
traffic management standards by January 1, 2020.
    The civilian aviation sector is rapidly moving toward 
compliance, and I am concerned that our military aircraft could 
be shut out of the airspace they need for transit and training.
    In sum, while I am pleased that the Air Force fiscal year 
2017 budget request makes up some lost ground over last year, I 
am concerned that the proposed budget forces the Air Force and 
its sister services to make false choices between capability, 
capacity, and safety, when the undeniable reality is that our 
military needs all of the above.
    I firmly believe that what this subcommittee and the rest 
of Congress does about national defense and military readiness 
will be a defining issue. I firmly believe that we need a 
strong Air Force, equipped with the most capable aircraft that 
enable our men and women to carry out their missions 
effectively and safely.
    To do this, we need leadership in national security. We 
need an unambiguous declaration that our national security is 
our preeminent responsibility.
    Once again, I want to thank our witnesses for participating 
in our hearing this afternoon. And I look forward to discussing 
these important topics.
    And, with that, I turn to my good friend and colleague, the 
ranking member of the subcommittee, Joe Courtney.
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 27.]

     STATEMENT OF HON. JOE COURTNEY, A REPRESENTATIVE FROM 
   CONNECTICUT, RANKING MEMBER, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Courtney. Thank you, Mr. Chairman. Thank you for 
holding this hearing on the 2017 Air Force budget request for 
projection forces program, under the jurisdiction of our 
subcommittee. And thank you, as well, to our distinguished 
witnesses that are here today.
    The tankers, bombers, and airlift programs that fall under 
the projection forces side of our panel's oversight serve as 
the backbone of our Nation's ability to conduct operations and 
preserve our Nation's interests around the world.
    As we know all too well, however, they all share the common 
enemy of age. The tankers and bombers in service today are 
largely legacy aircraft that, in most cases, are much older 
than the airmen and women who fly them.
    As we have heard repeatedly in our hearings over the last 
year, the need to modernize and recapitalize these aircraft and 
their capabilities is increasingly critical. Rapidly improving 
A2/AD [anti-access/area denial] capabilities, long-range 
weapons, and sensing technologies make upgrading and replacing 
our legacy fleets that much more important.
    In order to meet these challenges, we must make the right 
investments today to ensure that we stay ahead of these trends. 
In my view, the 2017 budget we are considering here today makes 
important investments toward this goal and, on the whole, moves 
us in the right direction.
    Most notably, the budget continues to reflect the high 
strategic priority placed on two critical recapitalization 
programs, the KC-46A Pegasus tanker and the newly designated B-
21 Long Range Strike Bomber.
    Both programs have recently seen important milestones in 
their progress. For example, a KC-46A successfully conducted an 
in-flight refueling of an F/A-18 Hornet last month, making the 
aircraft's first use of the tanker's hose and drogue system.
    And the B-21 bomber recently saw the restart of the 
program, following the conclusion of a protest of the contract 
award. Together, these developments show continued progress 
toward rebuilding the essential backbone of our force 
projection capabilities. And I look forward to an update on the 
status of these two efforts.
    An ongoing area of concern for me is the modernization of 
our C-130H fleet. The ``Flying Yankees'' of the 103d Airlift 
Wing in Connecticut have largely completed their transition to 
their new C-130H flying mission.
    This mission, which ends several years of uncertainty about 
losing their A-10 mission in BRAC [Base Realignment and 
Closure] 2005, provides a sustainable and relevant role for our 
State and an important mobility capability for our Nation.
    Until last year, Congress and the Air Force had struggled 
to move forward on a clear plan to modernize our C-130Hs. 
Working with Air Force officials that are here, General Holmes, 
in particular, we included language in the 2016 NDAA [National 
Defense Authorization Act] to allow the service to move forward 
with a two-part modernization program to meet near-term FAA and 
international airspace mandates that go into effect in 2020 and 
then focus on the longer-term upgrades, to ensure the viability 
of the fleet well into the future.
    I am pleased that the budget accelerates both modernization 
efforts, known as AMP 1 [Avionics Modernization Program] and 
AMP 2, for the C-130H fleet. It is my understanding that, 
through this budget, the Air Force intends to have most, if not 
all, of the fleet airspace compliant by the 2020 deadline.
    Further, the budget outlines a plan to install 42 Increment 
2 upgrades by 2021 and to the rest of the fleet by 2028. I look 
forward to hearing from the witnesses about ways in which the 
Air Force, with the support of Congress, can continue to 
accelerate Increment 2 to meet the enduring need for these 
workhorses of our Nation's airlift.
    Finally, over the last year, Congress has made meaningful 
and bipartisan progress in limiting the impact of sequestration 
and the Budget Control Act [BCA]. While partially limiting the 
across-the-board cuts in 2016 and 2017 was important, the fact 
remains that our Air Force, like the military at large, remains 
handcuffed by sequestration in 2018 and beyond.
    Ever since passage of the Bipartisan Budget Act [BBA] last 
fall, several world events have further demonstrated just how 
important it is for all of us on this committee and our 
colleagues to work on both sides of the aisle in Congress to 
come together to make the compromises needed to protect our 
security and support the needs of our Nation.
    I look forward to hearing from our witnesses and our 
colleagues on the subcommittee.
    And, Mr. Chairman, I yield back.
    [The prepared statement of Mr. Courtney can be found in the 
Appendix on page 29.]
    Mr. Forbes. Thank you, Mr. Courtney.
    And as we indicated at the beginning, we are delighted to 
have both of you here, and we are looking forward to your 
testimony. General Bunch, it is my understanding that you are 
going to go first. So we are looking forward to your remarks. 
And just so both of you know, we are going to put your written 
statement in the record in its entirety. So feel free to 
reference it any way that you may feel appropriate to do.

   STATEMENT OF LT GEN ARNOLD W. BUNCH, JR., USAF, MILITARY 
DEPUTY, OFFICE OF THE ASSISTANT SECRETARY OF THE AIR FORCE FOR 
                          ACQUISITION

    General Bunch. Thank you, Chairman Forbes, Ranking Member 
Courtney, and other distinguished members for this opportunity 
to address the subcommittee. I greatly appreciate the work you 
do and the support you provide the warfighter in the United 
States Air Force.
    General Holmes and I did prepare a joint statement, and you 
have submitted it. I will not go through that here. I will make 
a few opening remarks, and then I will turn it over to General 
Holmes.
    We are here to discuss the fiscal year 2017 budget we 
submitted and some of the tough choices we made, as we 
finalized the budget. While the members of our Air Force are 
razor sharp, dependable, and ready as ever, we cannot say the 
same for many of our mainstay weapons systems.
    The United States Air Force has, essentially, been in a 
wartime posture since 1991. This rate of deployment and 
constant readiness, spanning a quarter century, has taken its 
toll. You have heard the phrases used to describe our aircraft 
so many times that they almost become cliches.
    Twenty-one aircraft fleets that would qualify for antique 
license plates in the State of Virginia, many pilots flying 
aircraft older than they are, and, in some cases, third-
generation pilots flying the same aircraft as their grandfather 
flew.
    In order to maintain an edge against our adversaries, as 
well as to reverse the trend of the increasing budget drain of 
operations and sustainment cost for these aging platforms, the 
Air Force must modernize.
    The Air Force has several competing choices, as we continue 
to modernize and recapitalize our aging fleets, while ensuring 
an appropriate level of readiness to support today's conflicts. 
It is imperative we get this balance right to ensure we not 
only win today's fight, but also stand ready to address 
tomorrow's threats.
    Our bomber, tanker, and mobility fleets are the lynchpins 
of the Air Force's ability to provide global reach and global 
power in support of the national military strategy and the 
combatant commanders.
    Two of our top priority recapitalization efforts, B-21 and 
KC-46A, provide vital future modernized capabilities. We must 
keep these programs, as well as other modernization efforts, on 
track to deliver these capabilities. And we must execute all of 
these efforts in the most cost-effective manner possible, given 
the budget constraints we live within.
    Again, I thank you for this opportunity to testify before 
the subcommittee, and I look forward to answering your 
questions. I will stop at this point and allow General Holmes 
to provide his comments.
    [The joint prepared statement of General Bunch and General 
Holmes can be found in the Appendix on page 31.]
    Mr. Forbes. General Holmes, we welcome your remarks.

  STATEMENT OF LT GEN JAMES M. ``MIKE'' HOLMES, USAF, DEPUTY 
     CHIEF OF STAFF FOR STRATEGIC PLANS AND REQUIREMENTS, 
                  HEADQUARTERS U.S. AIR FORCE

    General Holmes. Thank you, Chairman Forbes, Ranking Member 
Courtney, ladies and gentlemen of the committee, and thank you 
for your continued support of the United States Air Force, our 
airmen, and their families.
    My good friend, General Bunch, and I grew up about 45 
minutes apart. And the people of east Tennessee are either very 
proud or very surprised to see us here in front of you today.
    [Laughter.]
    General Holmes. So thanks for giving us the opportunity.
    Mr. Forbes. I am sure they are very proud.
    General Holmes. So thanks for your continued support. To 
begin the discussion of our 2017 President's budget, it is 
important to frame the environment in which our decisions were 
made. Today's demand for Air Force capabilities continues to 
grow, as airmen provide America with unmatched global 
vigilance, global reach, and global power.
    Airmen are engaged defending U.S. interests around the 
globe. Every day, approximately 200,000 airmen directly support 
combatant commander requirements in response to growing 
challenges created by an increasingly aggressive Russia, an 
increasingly capable China, an unpredictable North Korea, and 
the malign influence of Iran, all in addition to the ever-
present counterterrorism mission in the Middle East and around 
the world.
    While our forces have been heavily engaged in deterring or 
addressing these operational challenges, our adversaries have 
taken the opportunity to invest in and advance their own 
capabilities.
    For the first time in decades, our adversaries are closing 
in on our capability advantages. Our efforts to address these 
increasing challenges have been stymied by reduced and 
unpredictable budgets.
    The limited resources available, since the Budget Control 
Act of 2011, have hampered our ability to balance readiness, 
capability, and capacity. The 2017 President's budget trades 
modernization in the Air Force, particularly F-35 production 
rate and fourth-generation fighter modifications, but also some 
C-130J procurement, to sustain the capacity necessary to meet 
the combatant commanders' urgent needs for air, space, and 
cyber forces and begin recovering readiness levels after 25 
years of continuous combat.
    And while we are very grateful for the additional resources 
the Bipartisan Budget Act provides compared to Budget Control 
Act caps, we continue to face difficult choices between 
capacity, readiness, and modernization.
    This President's budget works to make every BBA dollar 
count, by aligning our force structure with Defense Strategic 
Guidance and making down payments on the Air Force's 30-year 
strategy, ensuring a credible nuclear deterrent and beginning 
the recapitalization of our aging nuclear force structure, 
advancing space and cyber capabilities, maintaining the 
conventional force capacity required to support current 
operations, increasing our end strength to begin addressing key 
personnel shortfalls, and investing in the research and 
development required to regain our capability advantage in the 
future.
    We continue to fund our top three procurement programs, the 
B-21, the KC-46A tanker, and the F-35 fifth-generation fighter, 
although, as I said, we were unable to procure F-35s at 
previously planned rates.
    Together, our nuclear and conventional bombers, in concert 
with our tanker and mobility aircraft, ensure the global reach 
and global power required to provide effective deterrents. But 
both our bomber and mobility fleets are aging, as General Bunch 
said.
    And, in fact, the average age of the B-52 strategic bomber 
and the KC-135 tanker make them both about as old as I am. And 
my staff pointed out that I qualified for AARP [American 
Association of Retired Persons] membership several years ago.
    To that end, this budget funds nearly $20 billion across 
the FYDP [Future Years Defense Program] for procurement and 
$4.2 billion across the FYDP in research, development, and 
technology for our mobility force.
    To support our bomber force, it funds $2.3 billion across 
the FYDP for procurement, and $16.2 billion across the FYDP in 
research, development, and technology, with most of that $16.2 
billion going into the B-21 program in its early years.
    We will continue to invest in and recapitalize these 
important aircraft. However, we need your support in the form 
of stable and predictable budgets, if we are going to build the 
Air Force that ensures the joint force can continue to deter, 
deny, and decisively defeat any enemy that threatens the United 
States or our national interests.
    Any return to sequestration-level funding will force us to 
chase short-term requirements at the expense of long-term 
strategic planning, modernization, and readiness. And our 
budget problems will only get worse between now and the end of 
this 5-year plan.
    As Deputy Secretary of Defense Work said this week, the 
Department will need about $18 billion a year between 2021 and 
2035 for nuclear modernization. And that comes at the same time 
as a huge bow wave of spending required to recapitalize our 
conventional ships and aircraft.
    We look forward to working with you in the years to come to 
find a solution to that shortfall. We thank you for your kind 
attention and continued support of our Air Force. And, along 
with General Bunch, I look forward to your questions.
    [The joint prepared statement of General Holmes and General 
Bunch can be found in the Appendix on page 31.]
    Mr. Forbes. General Holmes, thank you.
    And, General Bunch, we appreciate your testimony, as well.
    We had the Navy testify and present their 2017 budget to us 
just a short while ago. And we asked them a question we are 
going to ask you both now. Is this a budget whereby you looked 
at the threats around the globe and said this is the budget we 
need to defend and protect the United States from those 
threats, or is this a budget where you looked at the dollars 
you had been allocated and said, this is the best resources or 
the best utilization of the dollars we have been allocated?
    The Navy answered that it was the latter. If we pose that 
question to you, what would your response be to that?
    General Holmes. Thank you, Chairman Forbes. I would say our 
budget was driven by strategy, but it is budget constrained. We 
had to make hard choices within the programs that our strategy 
would drive.
    We balanced capacity, capability, and readiness, but, as I 
spoke, we traded capability to maintain the capacity required 
for today's threats and to try to move out to regain the 
readiness that we have given up in 25 years of combat. So it is 
based on strategy, but it is certainly influenced by the budget 
limits.
    Mr. Forbes. Outside experts, General Holmes, have said that 
the Air Force needs to buy 170 to 200 new bombers, whereas the 
Air Force says it is planning to purchase only 100 of the next-
generation B-21 stealth aircraft.
    What risk does the Nation bear if Congress supports the 
current program of record? Is 100 Long Range Strike Bombers a 
COCOM [combatant command] requirement, needed to fulfill 
operational plans, or is it a budget-driven affordable number?
    General Holmes. Thank you, Chairman Forbes. You know, our 
current bomber fleet is just over 150 bombers of the 3 types, 
of which 96 of those are combat coded. Historically, as the Air 
Force has looked over the last decade or so at what our numbers 
should be for the bomber force, we usually end up with a number 
of between 150 and 200.
    And, last week, General Rand spoke of needing somewhere 
between 170 and 200 bombers total in the fleet. The fleet size 
of 100 B-21s is appropriate and ensures sustained high-end 
conventional operations, while also supporting the nuclear 
triad.
    And it is underpinned by extensive analysis and 
conversations with the COCOMs to make sure that the B-21 fleet 
will have sufficient numbers to provide the weapons and sensors 
at range, which are the hard part for us in anti-access and 
area denial environments.
    You have to have enough airplanes to be able to keep enough 
forward to be able to make a difference. And we think 100 is 
the right number there. But we also know that our future fleet 
will be composed of B-21s and some portion of our legacy fleet 
for quite a while to come. And we will have time to readdress 
exactly what that right number is, whether it would be 
additional B-21s or whether it would be some other platform at 
the end of that buy. Thank you.
    Mr. Forbes. So, based on your earlier response that this 
budget was budget constrained, your response would be that this 
100 number is not based upon budget restraints, but rather it 
is driven by strategy and our COCOM requirements?
    General Holmes. Yes, sir. I believe this number is. But to 
serve the country well into the future, we also need an 
appropriate fleet size that won't fiscally overcommit the Air 
Force within all the other requirements that we have to meet.
    So the 100 was our requirement. And, again, we will have to 
take a look at it in the years to come and see if that 
requirement changes.
    Mr. Forbes. Okay. For both of you gentlemen, DOD 
[Department of Defense] released a report in June 2015 
entitled, ``Plan for Modernization or Replacement of Digital 
Avionic Equipment.'' The report shows that the Air Force, 
unlike the Navy and the Army, has not made the investments 
needed to ensure its aircraft meet the FAA January 1, 2020, 
ADS-B [Automatic Dependent Surveillance--Broadcast] mandate.
    Why is this the case? And how does the Air Force intend to 
operate after January 1, 2020? If FAA does not provide a waiver 
to their mandate, what are the fiscal and operational 
implications for expediting compliance?
    General Holmes. Thanks, again, Mr. Chairman. So, if you 
look at the Air Force budget since 2012, right after the 
passage of the BCA, if you compare our budget to the 2012 
President's budget, we have lost about $70 billion in buying 
power. If you compare it to the enacted 2012 budget and the 
totals that were predicted at that point, we have lost about 
$40 billion in buying power.
    So when we had to find a place to absorb that $40 billion, 
we looked at this bill. The total bill for the Department is 
estimated at about $5.6 billion to equip all DOD aircraft with 
the required equipment.
    The Air Force's portion of that bill is approximately $4.4 
billion, so the lion's share of that bill. And, right now, we 
are about $1.2 billion difference in between what we need to 
accomplish the mandate and what we have committed in our 
budget.
    We have prioritized the airplanes that will be in the 
densest airspace first. So we prioritized our efforts in our 
mobility aircraft, and we won't make 100 percent of that 
requirement by 2020, but with your help, we were able to get to 
the C-130Hs. And we will work through those airplanes at the 
front end of the package.
    Some of our airplanes, there may not be a cost-affordable 
solution to implement it, things like the F-22. And we will 
have to accept some risk in being able to use the most crowded 
part of national or international airspace.
    But the DOD made clear, when the FAA passed the rule, that 
we would need some kind of accommodation. And, although the FAA 
didn't apply a specific DOD waiver, the rule does provide for 
procedures for an aircraft that doesn't meet the ADS-B Out 
performance requirements to obtain an authorized deviation to 
operate in that airspace.
    So we will be able to operate. We will be able to go where 
the Nation needs us to go. But we will be accepting some risk 
and delays, or in extra fuel in some of the densest airspace.
    Mr. Forbes. Does the Department of Defense need a waiver?
    General Holmes. We have begun to work that process with the 
FAA. The first waiver we provided was for the F-22, and we 
expect that we will need, at least, some kind of memorandum of 
agreement with the FAA prior to 2020.
    Mr. Forbes. And, again, if you would explain for the 
subcommittee exactly what happens if you don't get that waiver? 
And, for the planes that are not compliant, what would they 
have to do? What would that mean?
    General Holmes. So if there is primary radar in that area, 
Mr. Chairman, my understanding is that the FAA will have the 
ability to work to bring our airplanes through that area. As 
the FAA shifts to new technology to monitor, there may be be 
some areas that don't have primary radar. And, in those cases, 
controllers, based on their workload, will make adjustments to 
sequence us through.
    As we work through our C-130 upgrade plan, we were, 
fortunately, able to accelerate Increment 1 to where we will 
get all of those C-130Hs upgraded. And, as we work through the 
rest of our fleets, we will prioritize the ones that are in the 
busiest traffic areas in the United States that would face the 
most limitation.
    But we currently have parts of our fleet that don't meet 
all of the FAA requirements to operate in portions of the 
airspace. For example, our fighter fleet, the F-15 that I last 
flew, you can't get above a certain altitude in FAA airspace. 
You can't file a flight plan above it, but controllers will 
work you above it.
    And, so, we accept some delay, and we accept some higher 
fuel cost to be able to move airplanes. But we will be able to 
move the airplanes where we need to go to serve the country, 
but with some delay and with some higher fuel costs, if we have 
to drive around an area to get where we need to go.
    Mr. Forbes. My last question, the administration has 
proposed to reduce the overall inventory of C-130s by another 
27 aircraft and has proposed to delay the planned 
recapitalization of the C-130 fleet. Previously, the Air Force 
indicated that they had moderate risk in tactical airlift 
capacity.
    In my estimation, the budget request will make our tactical 
airlift fleet smaller and older. Can you provide an assessment 
of how the Air Force intends to support, with tactical airlift, 
if Congress adopts the budget proposals? Could you, General, 
hit your mic?
    General Holmes. I apologize. Thank you.
    Mr. Forbes. We all do that.
    General Holmes. Well, thank you, sir, for your patience. In 
2016, we brought a plan forward that would reduce our C-130 
fleet down to a combined size of 300. It takes place over time, 
about eight airplanes a year, as we work through this plan.
    The mission capabilities assessment study that was 
conducted by the Department says that we need 248 C-130s to 
meet the warfighting need. And, then, they estimated somewhere 
between 20 and 70 aircraft above that. So that would be 
somewhere between about 270 or 320.
    We believe the position of 300 is a good position in that 
risk. And they estimated those extra requirements would be 
required to do support for civil authorities or other things 
required outside of the war plans, in a worst-case scenario.
    We estimate that that 300 is a good balance in risk, if you 
compare it to the risk that we are taking in other fleets and 
across the other parts of the Air Force. And we think a fleet 
of 275 strategic airlifters built into 479 tankers and 300 
tactical airlifters will ensure that we will be able to meet 
the Nation's mobility needs by making use of that entire fleet.
    Mr. Forbes. Thank you. Mr. Courtney is recognized for any 
questions he may have.
    Mr. Courtney. Thank you, Mr. Chairman. And, again, just at 
the outset, General Holmes, I just want to again publicly thank 
you for working with the committee last year as we have an, 
obviously, high degree of member interest, in terms of this 
issue of avionics modernization. And your intervention and, you 
know, just common sense really helped us get to a good 
resolution. So, thank you for that.
    And just to maybe get a quick update on the record, again, 
you have been pretty positive about your confidence level that 
we are going to hit that 2020 requirement. I mean, is there a 
contracting process that is begun? You know, is there enough 
funds in the budget, in terms of, you know, what you are 
projecting to accomplish that goal?
    General Bunch. We don't see, at this time, sir, we don't 
see anything that would preclude us from making that date. 
Increment 1 is fully funded for the 172 aircraft, and we are 
tracking that. We see no roadblocks to making that date, at 
this time.
    Mr. Courtney. That is good news. And, with regards to 
Increment 2, again, it looks like the budget that was submitted 
this year, you moved up the compliance to 2028, which, last 
year, I think we were out in the 2030s or 2040s or something, 
so. So, obviously, that is positive movement.
    So what factors, you know, are informing the current 
installation profile for Increment 2? Is that rate dictated by 
industrial-based concerns, or is it funding related?
    General Bunch. Sir, we have laid in to get all of them by 
the mandate. And, so, we think we have met the requirements, 
and now we are building a plan for which tails we are going to 
go first. And we are looking at that in a holistic look, as to 
the age of the fleet and how we go forward.
    General Holmes. And, if I could, Ranking Member Courtney, I 
would add that, as you look at how fast you are able to 
complete those Increment 2 kits, one of the considerations is 
how many airplanes can you take out of use at a time?
    And, so, we think we have built it at a rate that we can 
manage that risk, by taking the airplanes out of use to be able 
to do that lengthier Increment 2 modification, against our need 
to get it done as fast as we can.
    And, so, we think that schedule is about the right balance 
of risk between delaying the modernization and making sure that 
we have enough airplanes available out of that total fleet of 
300 to meet the requirement.
    Mr. Courtney. Great. Then, can I just have one other 
question, which is about, again, the C-130s, which is the issue 
of propulsion and propeller upgrades for the C-130s. You know, 
Congress, obviously, has shown a pretty clear and continued 
interest in C-130H engine and prop [propulsion/propeller] 
upgrades that have provided increased efficiency.
    What efforts is the Air Force making to program funding to 
ensure that the entire fleet receives those types of 
improvements?
    General Bunch. So, right now, sir, and thank you for the 
question, what the Air Force is doing is we have started an 
operational assessment. And we are doing that operational 
utility evaluation of the three propulsion modernization 
efforts that we had started. We had done each of those 
incrementally or individually, but we hadn't done those 
synchronized together in one thing.
    So, we are now doing an operation or evaluation with the 
Air National Guard and the Air Force Reserve Test Center at 
Tucson. That will complete in July of 2017. And we get through 
that, we look at the criteria and how it is scored out. Then we 
will make a determination of whether we continue to fill that 
across the fleet or how we would go forward.
    Mr. Forbes. The gentlelady from Missouri, Mrs. Hartzler, is 
recognized for 5 minutes.
    Mrs. Hartzler. Thank you. Thank you, Mr. Chairman. And I 
would have to say, General, that the citizens of Tennessee, no 
doubt, are very proud of both of you. So quite an 
accomplishment. Appreciate what you do.
    I wanted to follow up, actually, on what the ranking member 
was questioning about the propellers and the engines. Can you, 
just going forward, tell us about how fuel efficiency would be 
impacted by the investment in propeller and engine 
modernizations?
    General Bunch. Ma'am, I do not have a number in front of 
me. I know that is one of the factors that we will weigh out in 
the operational evaluation, will be to determine how much fuel 
savings there are, so that we could do the cost capability 
analysis, but I do not have a number on me. I will take that 
for the record.
    [The information referred to can be found in the Appendix 
on page 53.]
    Mrs. Hartzler. Okay. Great. But that is very important, and 
we would be interested to see what your evaluation comes up 
with in July. As far as the LRS-B program, can you explain the 
$3.5 billion reduction across the FYDP for the program?
    General Bunch. Yes, ma'am. The way the program was set up, 
we had estimated our costs by using a program office estimate. 
And we had done that up until the point that we got an 
independent cost estimate by an outside agency from the Air 
Force Cost--the AFCAA [Air Force Cost Analysis Agency] .
    And we also had one done by CAPE [Office of Cost Assessment 
and Program Evaluation] in OSD [Office of the Secretary of 
Defense]. And the result of that was the new independent cost 
assessment that we funded to. It was lower than the program 
office estimate. And the difference across the FYDP was over $3 
billion.
    And then we redistributed those dollars out to address 
other Air Force priorities, ma'am. That is how the number came.
    Mrs. Hartzler. Well, it is refreshing to see that the price 
comes in lower than we originally expected. That sounds good. 
And is the C-130H AMP Increment 1 and 2 fully funded to ensure 
the long-term viability of tactical airlift?
    General Bunch. Yes, ma'am.
    Mrs. Hartzler. Good. All right. Air Force rollup briefing 
states that the fiscal year 2017 funding gap delays the 
incremental replacement of the C-130H fleet. So can you 
elaborate on the impact of this delay, and please explain the 
risk associated with this budget request?
    General Holmes. Yes, ma'am. If you will allow me, I will 
answer that part. So we had eight C-130s in last year's program 
that were beyond the multi-year buy. And this program that we 
have brought forward this year eliminates those eight C-130s.
    And so we would stop at the end of our program multi-year 
buy. We will do the AMP Inc [Increment] 1 and Inc 2 upgrade to 
the remaining C-130Hs, and we believe that will give us a fleet 
of 300 aircraft that are safe, that are compliant, and that are 
modernized to support them through their life
    In a different budget positon, you know, we would love to 
be able to recapitalize some of the older C-130Hs. At the 
budget level that we are at now, we can't fit it into the 
program. But we believe we will provide 300 again, safe, 
compliant, and modernized airplanes.
    Mrs. Hartzler. And the last question. We appreciate the 
amount of money that is put in this budget for the defense 
management system of the B-2. Could you kind of explain this 
system and how important it is that we get this fully funded?
    General Bunch. Yes, ma'am. It is very vital for the B-2 to 
continue to have the ability to operate in an anti-access/area 
denial environment. And it modernizes it to protect that 
aircraft as the threat has advanced, which it is, because the 
world has watched as airpower has dominated for many years now.
    And they have changed the threats to get us to further out, 
and they have advanced. And this is just another step in the 
game to improve the defensive management system so that we can 
continue operating in an anti-access/area denial environment.
    Mrs. Hartzler. Well, we appreciate your support of that and 
all the platforms that our men and women in the Air Force need. 
So, thank you.
    I yield back.
    Mr. Forbes. And, General, can I just make sure we have 
corrected, or that you have an opportunity to correct if 
necessary. You said the program was fully funded. It is my 
understanding that the AMP 1 program is partially funded and 
the AMP 2 program is not funded through the FYDP. Am I 
incorrect on that?
    General Holmes. Sir, I believe that the AMP Inc 1 is 
completely funded, at last in 2017 and out. We may have to come 
back and talk about moving some 2016 dollars, but I believe Inc 
1 is completely funded.
    Inc 2 is funded within this FYDP. And in the 20-year plan 
that I am responsible to build for the Air Force, we have the 
money laid out beyond the FYDP to get us through that 2028 
date, which is outside of this FYDP.
    Mr. Forbes. The gentlelady from Guam is recognized for 5 
minutes.
    Ms. Bordallo. Thank you very much, Mr. Chairman, and thank 
you for calling this hearing.
    General Holmes and General Bunch, thank you very much for 
your service to our country. I guess either one of you might be 
able to answer this. I asked this question at a previous 
hearing, but I will repeat it again.
    First, I would like to voice my appreciation for the Air 
Force's diligent work in moving forward with the acquisition 
process of the Long Range Strike Bomber. The capabilities that 
this platform will provide are extremely, extremely necessary 
to maintain the defense of our Nation and our allies.
    So, General Bunch, I will begin with you. There has been 
recent criticism from one of our Senators against the Air 
Force's proposed use of cost-plus during the early stages of 
the acquisition program for the Long Range Strike Bomber.
    Now, can you please explain why the Air Force prefers a 
blended, cost-plus, fixed-price approach for this program and 
what advantages, General, it provides, in this instance, over 
the traditional acquisition method?
    General Bunch. Well, thank you, ma'am. That is a topic of 
interest, and I am glad that I get the opportunity to try to 
address it. Let me start with, there is no one-size-fits-all 
when it comes to deciding what kind of a contract you want to 
use on an acquisition program. There are various factors that 
are weighed out.
    On this one, we carefully considered the full spectrum of 
contract options before a decision was made by the Milestone 
Decision Authority to go forward with a cost-plus for the 
engineering, manufacturing, and development.
    In reality, over 70% of the program, as it is laid out 
today, is actually on a fixed-price type contract. It is only 
the part that is in the EMD [engineering and manufacturing 
development] phase, is the only part, right now, that is in a 
cost-plus environment, but the vast majority of it is in a 
fixed price.
    The key factors that went into the decision to go forward 
with a cost-plus contract were the risk involved. And when 
there is technical risk and you don't really--you have never 
built something before, there is a risk that is out there, and 
a cost-plus environment is more frequently used in that case
    In this case, we had mature technologies to meet the 
requirement, and that was good. But now we have to integrate 
all of those mature technologies together, which carries risk, 
and we have to build a never-before-built, low-observable, 
penetrating bomber and integrate those on it. Those are the 
main technical risk areas that we have focused on.
    The other one that you focus on and that we consider is, 
can the contractor who is doing this kind of work absorb a loss 
if one were to occur. The example many point to right know is 
the KC-46 program.
    The KC-46 program is gone beyond what the Air Force cap, in 
the expenses, but Boeing continues to do that and continue that 
work, because they have a commercial line that they can utilize 
and they can continue to get benefits from. And the other piece 
they can do is they can get foreign military sales.
    Commercialization of a Long Range Strike Bomber and foreign 
military sales are not two things that we are looking at. So 
the ability of any contractor that took this contract to be 
able to absorb that and not sell it out, that wouldn't be 
feasible.
    And there are many examples that you can go back and look 
at where we have tried to do fixed-price development programs 
on new and emerging technologies, and many of those cases have 
not been very successful. But that is the reason we went down 
that path.
    We realize that one of the big concerns that people have 
with this strategy is the need to control cost growth, and that 
is a focus area that we have had from the very beginning of the 
program.
    We have used mature technologies, so we are not worried 
about developing additional. It is not--you are not developing 
a system along with the platform, you are just developing the 
platform. So we have limited some of the risk there. We have an 
independent cost assessment. It was done outside the program 
office, and we funded that independent cost assessment, in 
accordance with the law.
    And then, the other one we have on this program are stable 
requirements. Stable requirements and requirements control and 
funding with a good cost assessment from the beginning, studies 
have shown are the two main ways to control, two of the major 
ways to control, cost growth. So we are stable on our 
requirements and we feel like we are in a good position for 
starting the program.
    The other piece that we have implemented here is, our 
requirements control officer for the program is our chief. He 
has made it crystal clear the requirements are the requirements 
and no one else is going to change those. So we have a tight 
control on those, as well.
    The final thing I would say we have done to control cost 
growth is that we have structured the contract with an 
incentive structure that incentivizes the contractor in the way 
we want. If they do not control cost and they do not control 
schedule, they will, in the end, not get any fee. So we have 
structured it in a manner to control those cost growths, and we 
know this is going to be a topic of more discussion, ma'am.
    Ms. Bordallo. Well, thank you very much, General. It 
answers my question.
    And I yield back.
    Mr. Forbes. The gentlelady from Indiana is recognized for 5 
minutes.
    Mrs. Walorski. Thank you, Mr. Chairman, and thank you, 
gentlemen, for being here.
    General Bunch, I have a question. What is your assessment 
of whether Boeing will meet its contractual obligations to 
deliver 18 KC-46As by August of 2017?
    General Bunch. So, ma'am, we are still cautiously 
optimistic. Boeing still assesses that they can meet it. They 
are committed to that date. They have put additional resources 
to make that date, but we have no schedule margin. And if I am 
asked why I am cautiously optimistic, we are still early in a 
test program that we talked about.
    We have been successful with meeting our milestone C 
criteria for an F-16, for the F-18, which was discussed, and 
also with the KC-46 receiving gas as a refueler. So we have 
made progress, but we still have a lot of progress to go, 
ma'am.
    Mrs. Walorski. I appreciate it. And then, also, I represent 
Grissom Air Reserve in Indiana, where many of those KC-135s are 
still successfully flying, thanks to an incredible work of the 
airmen and airwomen there. So I appreciate your remarks earlier 
on how old some of these aircraft are.
    I am concerned, though, about the program delays impact on 
the amount of time those aircraft will need to stay flying. Can 
you provide your outlook on the program more broadly?
    General Bunch. On the KC-46 program, ma'am?
    Mrs. Walorski. On the KC-135s and the KC-46 program.
    General Bunch. For the KC-135s, ma'am, we do have 
investment money laid in. We are finishing up the Block 45 
upgrade, which is to improve their maintainability and their 
reliability into more modernized cockpits. And we are counting 
on those being in the inventory for quite some time.
    We have also done the FAA-mandated things, or will have 
that done by 2020 so that we meet that requirement and they 
will be able to continue to operate. So on the 135 front, we 
are continuing to take an older generation of aircraft, older 
than myself, and continue to keep it flying and viable through 
investment, smart engineering, and teamwork with all parties 
involved.
    On the KC-46, we are a little behind on when we were going 
to do some of the initial fielding. We have delayed about 6 
months. The first two bases that we were going to field the 
aircraft at, that has been delayed because the test program was 
delayed.
    And we have not been able to get the spec verification 
reviewed and accomplished, and it corresponds to that. The 
aircraft are still being built, so they can continue to make 
the RAA [required assets available] date. And they are on track 
to do that, but until we can get enough of the test data and 
verify the performance, we can't accept those aircraft, and we 
can't put them out to the field.
    So, the program is progressing. We have been delayed on the 
test program, and that is one we are watching very closely.
    Mrs. Walorski. I appreciate it.
    Thank you, Mr. Chairman. I yield back.
    Mr. Forbes. The gentlelady from Florida, Ms. Graham, is 
recognized for 5 minutes.
    Ms. Graham. Thank you, Mr. Chairman. Good to see you both 
again. I had, actually, a different question, but something you 
just said just sparked--first of all, you are young. Very, very 
young. In terms of maintaining this aircraft, these aircraft, 
what is the maintenance, what is the process for maintenance 
that you follow?
    One of the things that concern me, I represent Tyndall. And 
when I went to visit Tyndall one time, I had someone pull me 
aside and say, the challenges that they faced. And I am sorry 
if this question has already been asked, if I walked in--the 
challenges they face with just getting a part, in order to fly 
the F-22. What challenges, if any, do you all face with the 
maintenance of the, let me use, the Air Force projection 
forces? Thank you.
    General Bunch. Yes, ma'am. So, we face challenges on the 
older aircraft. There is no doubt about it. We are constantly 
fighting diminishing manufacturing sources and parts 
obsolescence. It is one that the program offices actually 
track, so they can determine where they can get parts.
    There are certain ways that we will work together, and, in 
many of our efforts, we will identify where the trends are. And 
we will make investments in those from a supportability phase, 
so that we can modernize those components, as time goes 
forward.
    So it is a risk that we run on all the older fleets. What 
we also find is that we don't know what we don't know 
sometimes. Sometimes, we will find things as we go into depot 
maintenance.
    Sometimes we will find things out on the frontline that we 
didn't predict, simply because of the age of the fleet and how 
they have matured through the use and the extensive use that we 
have with the platforms.
    Ms. Graham. When you need a part, where do you go to get 
that part?
    General Bunch. The Air Force Sustainment Center, ma'am, 
runs our supply, and we also work with DLA [Defense Logistics 
Agency]. And they work through various sources to find those. 
Some parts for some of our fleet, we actually go to the 
boneyard, in some cases, and we will pull parts off of aircraft 
that have been retired for certain of the older aspects.
    But the Air Force Sustainment Center is part of Air Force 
Materiel Command. They run our supply chain, and they are the 
ones that have to find out the ways to go get the parts and 
track those down so that we can keep the fleet flying.
    Ms. Graham. Great. Thank you. Now I am going to go to the 
question I was originally going to ask. The chairman has been 
so wonderful to provide us an opportunity to learn about what 
is the emphasis behind the budget requests that are in the new 
budget.
    And I know there is different pressures that are on the 
military. Preaching to the choir, right? It is a Southern 
saying. But in your opinion, which decisions stand out as 
something that you, from a budgetary restriction, as opposed to 
what we need to be focusing on, which is making sure we are 
making decisions in the best interest of our strategic needs?
    General Holmes. So, thank you, ma'am, and as we work to 
balance capability, capacity, and readiness, which is how we 
think that the way we provide forces to the combatant 
commanders, in this budget, at this level, we made choices to 
give up some future capability in order to minimize the risk 
now for the current fight that we are in.
    So the particular items in this budget I would highlight 
would be the reduction in F-35s from our planned buy. And we 
were five short from where we had planned to be last year at 
this time. We are not able to fund all, what we call, fourth-
generation mods, the modifications to our older fighter fleet 
that is required to keep them viable, as they fly longer into 
their service life, and then, also, make them useful in the 
increased threat environment.
    So we want to upgrade radars. We want to upgrade the radar 
warning receivers. We want to add new computers to, 
particularly, the F-15 and the F-16. And we will get after 
those, but not at the rate that we would like to.
    The chairman mentioned, we are reducing the C-130 
recapitalization program. So the choices we made reduce our 
capability for the future, in order to provide capacity and 
readiness for today's fight.
    Ms. Graham. Thank you very much. And I appreciate your 
answers.
    And I yield back, Mr. Chairman.
    Mr. Forbes. The gentleman from Oklahoma is recognized for 5 
minutes.
    Mr. Bridenstine. Thank you, Mr. Chairman. General Bunch, I 
just want to thank you for your commitment in the President's 
budget request for AMP 1 and AMP 2. I wanted to ask, is AMP 1 
multiple contracts or a single contract covering all of AMP 1?
    General Bunch. So it depends on which exact phase we are 
talking about, sir. So the answer, I hate to say, it depends.
    Mr. Bridenstine. Okay.
    General Bunch. We are using small business for the 
integration piece of this, and then we are going to be 
competing the installations. And that will be something that 
small businesses and a variety of other organizations will be 
able to compete for. It is a mix.
    Mr. Bridenstine. So would the small business, that would be 
a sole-source kind of set-aside?
    General Bunch. I don't know if we do the set-aside on that, 
sir. I will take that for the record and get back to you 
exactly how we set that up. But I was informed it is a small 
business doing the integration.
    [The information referred to can be found in the Appendix 
on page 53.]
    Mr. Bridenstine. So can you share with us when you plan to 
award AMP 1? You can get back----
    General Bunch. Give me one second, sir. Let me see if I got 
it on this chart, here. I do not.
    Mr. Bridenstine. Okay.
    General Bunch. So I will take it for the record.
    [The information referred to can be found in the Appendix 
on page 53.]
    Mr. Bridenstine. Okay. That is good. And then, can you 
share if it will cover non-recurring engineering and 
installation, or both? Both, or one or the other, for AMP 1?
    General Bunch. So we fully funded the AMP 1 program to do 
everything we need to do, put it in the field.
    Mr. Bridenstine. Okay.
    General Bunch. And to meet the FAA mandate.
    Mr. Bridenstine. Okay. And for AMP 2, is the Air Force 
going to use non-developmental COTS, commercial-off-the-shelf, 
for AMP 2, or----
    General Bunch. AMP 2, we are still building the strategy, 
but we have done that in Increment 1, sir. And we look for 
those type of activities to try to reduce our cost and to keep 
a viable supply chain and be able to do that in the most cost-
effective and efficient manner that we can.
    Mr. Bridenstine. Okay. And I know this is not really the 
topic of this hearing, but since I had you here, thought I 
would ask you a question that might be a little off topic. But 
I asked General Welsh about it yesterday, and I was hoping to 
maybe get some more clarity. And that was on the Combat Rescue 
Helicopter.
    We have had reports that the Combat Rescue Helicopter is 
not going to be fielded for Guard units any earlier than 2027, 
which is 6 years after full-rate production begins. And I was 
wondering if there was justification for not fielding the 
Combat Rescue Helicopter concurrently in the Guard and in the 
Active Component?
    General Holmes. So in this case, Congressman, I will say, 
let me take that for the record for you and see. And come back 
and see if we have made a base-by-base plan yet. I am not aware 
that we have made a base-by-base plan yet, but I will come back 
to you and let you know.
    [The information referred to can be found in the Appendix 
on page 53.]
    Mr. Bridenstine. Okay. Thank you, guys.
    I will yield back.
    Mr. Forbes. The gentleman from Washington, Mr. Larsen, is 
recognized for 5 minutes.
    Mr. Larsen. Thank you, Mr. Chairman. I would have questions 
on the K-46, but other than you all, the folks, good men and 
women on the line at Boeing, and me, we are all probably living 
and breathing it every day. And I know what I need to know on 
the 46. So I won't ask any more questions about that.
    I do have a question, just one, Mr. Chairman, on subject 
matter in your testimony on the B-52 and the length of time we 
are expecting it to, as a platform, to stick around, and 
combining that with all the discussion we have on A2/AD 
environments.
    And, so, if you could talk a little bit, maybe more clearly 
or any more details, specific detail about the B-52's role in 
the future in an A2/AD environment and from standoff and what 
we expect to be able to invest in it?
    General Holmes. Thank you, Congressman. I will start and 
see if Arnie has anything to add.
    Mr. Larsen. Yes.
    General Holmes. You know, we think we can fly the B-52 
through about 2050. And we think that we will probably need to. 
We need a mix in penetrating and standoff platforms in our 
bomber fleet.
    And the B-52, for all the talk we do about its age, is an 
amazing platform. It has held up and met the test of time. It 
is a testament to the airmen, both civilian and uniformed, that 
keep it working in the depot.
    We are committing money to upgrade their radar, in the B-
52, to make sure it will continue to be useful to us. We are 
adding a tac [tactical] data link, so it can communicate 
forward with the other forces that are out there.
    We are going to do a crypto modernization program in this 
budget, and we funded upgrading the simulator to where crews 
can practice air refueling in that simulator, instead of having 
to spend money to go out and fly, to do that requirement and do 
it more often.
    So, again, to come back, we think we will need a mix of 
both standoff and penetrating platforms. And, particularly, for 
the long-range scenarios out in the vast reaches of the 
Pacific, the B-52 is going to continue to be valuable for us 
for quite a while.
    Mr. Larsen. Thanks, General.
    General Bunch. And I will add one item. The other one we 
are doing is, we are doing an internal weapon bay upgrade to 
allow it to carry J-series weapons, so that it can have more 
capability even than it does at this time.
    It has the ability to carry those externally, but we are 
incorporating that into the internal bay, so that it will have 
more capacity and capability than it even has today. And I am a 
lover of the B-52. That is the first operational plane I flew, 
many days ago. So I am happy to see it moving forward.
    Mr. Larsen. So just a followup, can you talk any more 
specifically about, with regards to those upgrades, about 
standoff weapons that become more of a----
    General Bunch. Well, any of the J-series weapons that the 
aircraft can carry will have to go through the certification to 
ensure that it will clear the weapons bay and everything. But 
JDAMs [Joint Direct Attack Munitions] or other weapons that we 
would normally carry externally, we will be able to carry 
internally. So it is the ones it is already certified to carry. 
It just gives it more capacity to be able to carry them 
internal as well as external.
    Mr. Larsen. Yes. Thanks.
    Thank you, Mr. Chairman.
    Mr. Forbes. Gentleman, thank you. We just have a couple 
more questions. Then we are going to let you put anything you 
want on the record to clarify what you have said.
    Mr. Larsen was talking about the KC-46A, and you have heard 
that you feel that that time period will be met to deliver 18 
of those by August of 2017. What happens if they are not?
    General Bunch. If Boeing is unable to make that contractual 
date, then we will go into discussions with them for 
consideration. And, by consideration, I mean things that we, 
the Air Force, may want that we do not have in the contract 
today, that we would negotiate with them what we would get for 
any of the delays that occurred.
    Mr. Forbes. Okay. And when you negotiate with them, what is 
the leverage? Obviously, they will say they don't want to give 
anything. What is the leverage to determine how that is 
resolved?
    General Bunch. Sir, we have used consideration already in a 
lot of different areas. It is the teamwork and the discussion 
about how we are going forward. So----
    Mr. Forbes. And it seems to work?
    General Bunch [continuing]. We have successfully done this 
before.
    Mr. Forbes. Good. The last question, and this is not 
directed to you two. This is something we are going to start 
for the committee, as a whole, based on some information we 
were given at a retreat that the Armed Services Committee had 
last week.
    The written statements that you have both submitted to us, 
as I mentioned, are going to be put in the record. Did you have 
to submit those written statements to anyone for approval prior 
to coming here today?
    General Bunch. We did.
    Mr. Forbes. Who do you have to submit them to?
    General Bunch. We submit them to OMB [Office of Management 
and Budget] for review. They do a policy review, and then it 
goes to OMB.
    Mr. Forbes. Were any changes made between the original 
statements that you submitted and the statement that was 
ultimately submitted to the record?
    General Bunch. I am not aware of any changes that were 
made----
    General Holmes. I am not aware of any, Mr. Chairman.
    Mr. Forbes. Were you given any instructions as to what you 
could not say to this committee?
    General Bunch. No, sir.
    Mr. Forbes. And, General Holmes, same for you. And, again, 
this is not directed to you two. We are going to start doing it 
to everybody who testifies before our committee. The final 
thing that I would ask you is this.
    In your individual best professional military judgment, 
following up on something that Ms. Graham asked you, if you 
were submitting this budget, and if your sole priority was 
doing what was in the best interest of the national security of 
this country, both today and over the next 5 years, and you 
were not constrained by the budget numbers you currently have, 
what changes would you make?
    General Holmes. So, Mr. Chairman, thank you for that 
question. As, you know, almost 35 years in the Air Force, my 
experience is that I think there are two main things that an 
independent Air Force provides for a nation.
    The first is its portion of a safe, secure, reliable 
nuclear deterrent. And our Air Force provides what we call 
three of the four legs of the triad. You know, we provide the 
air leg, the ground leg, plus the command and control leg, in 
most of that.
    And I believe this budget makes the right investments for 
this FYDP, in that nuclear, but we are going to have problems 
again beginning in 2021, primarily for the Navy, and in 2022 
for the Air Force, on how we afford that, along with our 
conventional forces.
    On the conventional side, the next thing that an 
independent Air Force does for a nation, is it provides freedom 
of action in the air that makes all joint force operations 
possible, by controlling the air and space.
    And I believe that that is the area that we have given up 
the most of our capability advantage over the last 20 years, 
over potential adversaries, is in that air superiority mission 
that provides freedom of maneuver for the joint force.
    And I believe our Nation is going to have to make a 
continued investment there to regain that capability, or we put 
all the capabilities of the joint force at risk.
    Mr. Forbes. And how would you have changed that in the 
budget to accomplish that goal?
    General Holmes. So, in this budget, Mr. Chairman, I would 
say our options are pretty limited. We made a national decision 
to curtail the F-22 program. I think it is too late to reverse 
that decision. We are down to 120 combat-coded F-22s.
    And our F-15C fleet, we know in the last year we have 
learned that they are going to require major structural 
modification to continue to fly. And, so, we will put some 
money into the longeron part of that.
    There is two parts, to make the story short, longerons that 
we can replace in depot, and then fuselage bulkheads that will 
be cost prohibitive to do. So we have invested in this FYDP 
things we needed to do to keep the F-22's edge, but we need to 
move, I think, as fast as we can, as a nation, into some 
follow-on for the F-15, first, and for the F-22, eventually.
    We are finishing up a study we call ``Air Superiority 
2030,'' that we have briefed out the first version to our chief 
of staff yesterday. And we think that will provide a roadmap 
for us that we can come back and talk to you next year about 
where we should invest, to make sure that we guarantee that 
edge that our Nation depends on.
    Mr. Forbes. General Bunch, again, in your best professional 
military judgment, is there anything you would have changed in 
this budget, if you were looking strictly at the national 
security interest of the country, and you weren't constrained 
by the budget numbers you were given?
    General Bunch. Chairman Forbes, thank you for that 
question, sir. I agree with ``Mobile's'' [General Holmes] 
assessment of the triad. We have made the right investments 
now. That is one that is coming from an acquisition 
perspective, that the costs beyond this FYDP that we, as a 
nation, are going to have to decide what we are going to do.
    So that is one that we are going to need everybody's 
attention on. So we will just lay that out there, but I believe 
we made the right investments during this FYDP in those areas. 
The other one I will go back to is one of the things that 
General Holmes talked about was the cost of some of the legacy 
fighters and some of the inventory. The quicker we get the F-35 
in the field, the better off we are going to be in those areas. 
And that is one that would help us.
    I am happy with the support we have gotten on the Long 
Range Strike Bomber and that modernization roadmap. The big 
programs are all going, are all getting great support from all 
parties. But it is some of the F-35 and some of those decisions 
that will drive impacts to the legacy fleet that we need to 
watch out for.
    Mr. Forbes. Mr. Courtney and I appreciate you being here. 
We would like to extend to you now an opportunity for any 
comments that either of you would like to put on the record, 
clarification of anything you have said, things we have left 
out, whatever you think might be important for this record.
    General Holmes, we will recognize you first, and then 
General Bunch.
    General Holmes. Thank you, Mr. Chairman, and, again, 
Ranking Member Courtney. We are appreciative of the chance just 
to come and talk in front of you. We are appreciative of your 
leadership.
    Ranking Member Courtney, you talked about the Air Force 
working to get a solution to the C-130Hs. That would not have 
been possible without the leadership of you, Chairman Forbes, 
and you, Ranking Member Courtney.
    We look forward to continuing to work with you. I don't 
have any corrections. For the record, we have some questions 
that we will take to respond to you and to the members. And we 
thank you for the opportunity to be here.
    Mr. Forbes. General Bunch.
    General Bunch. And, Mr. Chairman and Congressman Courtney, 
thank you very much, for allowing and for your support. We 
greatly appreciate it, and we appreciate the questions today. I 
am glad we got the chance to talk about the B-21, and the way 
we are going forward, and the KC-46. Those are highlights for 
us, as an Air Force, as we move forward to modernize and 
recapitalize.
    And I have nothing that I believe I need to correct for the 
record. And we do have some actions or questions that we will 
take back to answer. And we appreciate your continued support.
    Mr. Forbes. For that, we thank you both for being here, for 
your service, again, to the country. And with that, Mr. 
Courtney, we are adjourned.
    [Whereupon, at 2:03 p.m., the subcommittee was adjourned.]

     
=======================================================================

                            A P P E N D I X

                             March 1, 2016
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 1, 2016

=======================================================================

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

           
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 1, 2016

=======================================================================
     

            RESPONSE TO QUESTION SUBMITTED BY MRS. HARTZLER

    General Bunch. A 2011 Air Mobility Command Business Case Analysis 
states that engine cell testing has shown the T-56 3.5 engine 
modification to conservatively yield an overall 7.9 percent improvement 
to the fuel consumption rate. The Air Force has not conducted a fuel 
savings analysis for the eight-bladed propeller upgrade. The Air Force 
plans to conduct an Operational Utility Evaluation (OUE) to test the T-
56 3.5 engine modification in combination with the eight-bladed 
propellers and the Electronic Propeller Control System (EPCS) from 
January 2017 to July 2017. The OUE's data and final test report will 
support a fielding recommendation based on operational effectiveness, 
suitability, and affordability of these propulsion system upgrades.   
[See page 12.]
                                 ______
                                 
          RESPONSES TO QUESTIONS SUBMITTED BY MR. BRIDENSTINE
    General Bunch. The C-130H AMP Increment 1 Acquisition Strategy 
separates design, integration, and kit production from kit 
installation. Design, integration, and kit production, specifically for 
the Automatic Dependent Surveillance--Broadcast (ADS-B) Out and 
Enhanced Mode S elements of Increment 1, will be competitively awarded 
as a Small Business Set-Aside. Kit installations will be competitively 
awarded through the Air Force Sustainment Center Contract Field Team 
(CFT) contract, which offers lower costs. CFT contractors have proven 
track records for similar C-130 modifications and have demonstrated 
flexibility to meet schedule requirements. The scope of the 
installation effort is anticipated to be within the CFT contract 
vehicle's Small Business Set-Aside pool, and all efforts will be made 
to competitively award the installation to a small business on the CFT 
contract.   [See page 17.]
    General Bunch. The Air Force plans to award the design, 
integration, and kit production, specifically for the Automatic 
Dependent Surveillance--Broadcast (ADS-B) Out and Enhanced Mode S 
elements of Increment 1 in the second quarter of fiscal year 2017. The 
Request for Proposal was formally released to industry on 7 Mar 2016.   
[See page 18.]
    General Holmes. The contractual bed down sequence was determined to 
capitalize on the two issues described below. In order to get the most 
accurate costs, the delivery locations were written into the Firm Fixed 
Price contract.
    First, the throughput of HH-60W conversion and initial aircrew 
training is largely dependent on active duty manpower at the Kirtland 
AFB training unit. Earlier transition of ARC units would limit the 
available pool of active duty instructors eligible for rotation through 
Kirtland AFB, stifling the production of HH-60W crewmembers and extend 
unit conversion timelines. In addition, the ARC units require higher 
crew ratios to support the same number of helicopters. Thus training 
the Active Duty first will provide the fastest throughput of ready HH-
60Ws.
    Second, the current plan will maximize HH-60W availability for 
deployment based on established dwell standards. Earlier transition of 
ARC units will prematurely limit the rate that HH-60W assets can be 
tasked from a redline dwell rate of 1:1 to 1:4, forcing aging active 
duty HH-60G assets to fulfill more contingency taskings into the late 
2020s.
    The United States Air Force remains committed to the CRH program 
and plans to have the entire fleet fielded by FY29.   [See page 18.]

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
